No.

20-6882

In The

'upreme Court of the Qatttteb &tots

BO ZOU

—PETITIONER

vs.

LINDE ENGINEERING NORTH AMERICA, INC. —RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITION FOR REHEARING

BO ZOU
4920 S Yorktown Avenue, #122
Tulsa, OK 74105
Phone: 713-835-8655

PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, Petitioner hereby respectfully petitions for
rehearing of this case before a full nine-Member Court. Petitioner moves this Court
to grant this petition for rehearing because of following substantial grounds:
The Tenth Circuit knowingly deny that magistrate judge issued preliminary
injunctions, dismiss Petitioner's appeal and deprive Petitioner's appeal right in
violation of Constitutional First Amendment and the rights protected by the Due
Process Clause of the Fourteenth Amendment. The substantial ground was not
previously presented by Petitioner.
There are enough grounds for intervening circumstances of a substantial
effect on whether magistrate judge may knowingly usurp judicial authority to issue
injunctive reliefs without or in excess of her jurisdictions and authority.
There are enough grounds for intervening circumstances of a substantial
effect on whether Respondent and Respondent counsels' nefarious deeds in perjury
and falsifying documents, and contempt may be knowingly protected by federal
judges.
The dismissal decision made by the Tenth Circuit conflicts with
the decision of not only this court in Carson v. Am. Brands, Inc., 450 U.S. 79, 84
(1981) but also the Ninth Circuit in Buckingham v. Gannon (In re Touch America
Holdings, Inc. ERISA Litig.), 563 F.3d 903,906 (9th Cir. 2009); and Negrete v.
Allianz Life Ins. Co. of North America, 523 F.3d 1091, 1097 (9th Cir. 2008).
There is an overriding need for national uniformity.
The petition for rehearing is filed in good faith and within 25 days of this
Court's decision in this case.
Petitioner states detailed grounds to support the rehearing as follows:
1. The United States Court of Appeals for the Tenth Circuit dismissed
Petitioner's interlocutory appeal in violation of Constitutional First Amendment and
the rights protected by the Due Process Clause of the Fourteenth Amendment.

1

This Court can clearly see magistrate judge Jodi F. Jayne knowingly violated
28 U.S. Code § 636(b)(1)(A) to issue injunctions to prohibit Petitioner from:
filing any further motions for sanctions or for contempt in relation to
any of Defendant's current discovery responses.
issuing any further written discovery requests to Defendant, absent
leave of Court.
Under 28 U.S. Code § 636(b)(1)(A), magistrate judge does not have any
authority to issue injunctions unless consented by all parties. In this case, both
parties never consent to magistrate judge. Petitioner filed the interlocutory appeal
(Case No. 20-5099) to the Tenth Circuit in compliance with 28 U.S. Code §1292(a)(1).
Both the Tenth Circuit and this Court have the jurisdiction of the interlocutory
appeal under 28 U.S. Code §1292(a)(1). But, the Tenth Circuit knowingly deny that
magistrate judge's preliminary injunctions are "injunctions", and dismissed
Petitioner's appeal in violation of the First Amendment to the United States
Constitution, which guarantees freedom of speech, the right to peaceably assemble,
and the right to petition the government for a redress of grievances. These rights are
protected from infringement by State governments by the Due Process Clause of the
Fourteenth Amendment to the United States Constitution. The Tenth Circuit
knowingly deprive Petitioner's appeal and constitutional rights. Petitioner's
rehearing and writ of certiorari should be granted. The substantial ground was not
previously presented by Petitioner.
2. This case involves a challenge to U.S. laws, including whether guilt and
crime may be knowingly protected by federal judges, and whether judicial authority
may be knowingly usurped.
(1). Magistrate judge Jodi F. Jayne knowingly usurped judicial authority to
issue preliminary injunctions in violation of 28 U.S. Code § 636(b)(1)(A), and excise
civil contempt authority in violation of 28 U.S. Code § 636(e)(4) without or in excess
of her jurisdictions and authority to protect• Respondent's falsification on documents,

2

perjury and contempt.
Petitioner has provided irrefutable and indisputable factual evidence that
Respondent and Respondent's counsels falsified a lot of documents in the lawsuit.
See Dkt. Nos. 22, 28, 38, 60, 75, 86, 110, 111, 114, 125 and 151. Also, Petitioner has
also provided irrefutable and indisputable factual evidence that Respondent
committed perjury in answering Petitioner's FIRST and SENCOND sets of
interrogatories, and committed contempt in refusing to produce documents RFP 2, 3,
4, 6, 7, 21, 26 ordered twice to produce by magistrate judge herself. See Dkt. Nos. 86,
89. Magistrate judge issued the injunctions to protect Respondent's guilt, crime and
contempt, and further open a convenient door for Respondent to falsify documents
and refuse to produce any documents without sanctioning. It's severely irreparable
consequences to harm Petitioner in the lawsuit, and impossible for Petitioner to get
evidence to allege Respondent's discrimination against Petitioner's race and age.
Magistrate judge's injunctions would substantially affect the case, and change the
result of this lawsuit. Petitioner cannot obtain any relief except immediate appeal.
Furthermore, because magistrate judge's preliminary injunctions arise on
proceedings of this case, the same issues could arise again in this case following
proceedings and entry of a final judgment. On December 9, 2020, magistrate judge
openly instructed and guided Respondent to file case-wide filing restrictions after
the Tenth Circuit dismissed Petitioner's appeal case. Magistrate judge stated that
"Defendant requests only the sanction of dismissal and does not request lesser
sanctions such as ease-wide filing restrictions." See Dkt. No. 136, Pg. 3. And, the
judicial usurpation to issue injunctive reliefs and excise civil contempt authority
might be advanced in other cases anywhere nationwide because of the court of
appeals' dismissal decision. This Court should intervene in the circumstance in case
that magistrate judges knowingly usurps judicial authority to issue injunctions and
excise civil contempt authority without or in excess of their jurisdictions and
authority. It is absolutely necessary for this Court to keep laws to be respected and

3

abided by, and warrant prohibition from usurpation of judicial authority.
(2). Magistrate judge Jodi F. Jayne abused her discretion, and knowingly
covered and protected Respondent and Respondent counsels' guilt, crime and
contempt to prohibit Petitioner from filing motions to sanction Respondent's
nefarious deeds. Until now, Respondent cannot dispute the irrefutable factual
evidence for Respondent's falsification on documents, perjury and contempt of the
district court. So, Respondent filed motion for protective order (Dkt. No. 94) to
request to waive answering Petitioner's motions for sanction (Dkt. No. 86), and
motion for contempt (Dkt. No. 89) on August 11, 2020. See Dkt. No. 94, Pg. 7.
Both motions are key evidence to show Respondent's falsification on documents,
perjury and contempt in the lawsuit. However, the next day (08/12/2020), magistrate
judge immediately granted Respondent NOT to answer why they falsified documents,
and committed perjury and contempt, only with the pretext of avoiding unnecessary
litigation expense. See Dkt. No. 95.
Moreover, this case is a very common discrimination case, which never involves
in Respondent's any financial information, competitive information, trade secret or
other types of sensitive information. However, magistrate judge actively initiated to
grant Respondent a protective order for the emails only between two custodians.
See Dkt. No. 37, Pgs. 4, 5. These requested emails are very common emails only
involving in Defendant's internal response to Plaintiff's complaints. Later, regardless
of Petitioner's opposition (See Dkt. No. 48), magistrate judge forcibly granted
Respondent the protective order (Dkt. No. 71) without a good cause in violation of
Fed. R. Civ. P. 26(c)(1). Under the protective order, Respondent falsified a lot of
documents. Especially, Respondent blatantly falsified whole engineering organization
chart Sindegou] 00029e. See Dkt. No. 151, Pgs. 3, 4, 5.
Falsifying a document is a crime punishable as a felony. If Respondent and
Respondent counsels' nefarious deeds may be knowingly covered and protected by
federal judges, WHY the public need laws and courts?

4

An independent judge should assure that everybody's case would be decided
according to the law and the facts. Courts should interpret and apply the law to solve
parties' dispute impartially, instead of knowingly violating laws to help and protect
illegal behaviors or even criminals. It is absolutely necessary for this Court to
intervene and stop the nefarious deeds happened in the U.S. District Court for the
Northern District of Oklahoma. There are enough grounds for this Court to
intervene in the circumstance of a substantial effect on impartiality of laws and
warrant prohibition from magistrate judge's protection to guilt and crime.
3. The Tenth Circuit knowingly disregarded and ignored the fact that
magistrate judge issued injunctions, and the essential attributes of an injunction, and
citied wrong case to dismiss Petitioner's appeal case in conflict with the decision of
both this Court and the Ninth Circuit. There is an overriding need for national
uniformity.
It's indisputable and irrefutable for magistrate judge to issue injunctions. But,
the Tenth Circuit knowingly disregarded and ignored the fact and the essential
attributes of an injunction, and citied wrong case Gulfstream Aerospace Corp. v
Mayacamas Corp., 485 U.S. 271, 279 (1988) to consider magistrate judge's
preliminary injunctions only as the conduct or progress of litigation to dismiss
Petitioner's appeal case. In case Gulfstream Aerospace Corp. v. Mayacamas Corp.,
485 U.S. 271, 279 (1988), a district court order denying a motion to stay or dismiss an
action when a similar suit is pending in state court is not immediately appealable
under 28 U.S. Code§1291 or 1292 (a)(1). However, the situation in case Gulfstream
Aerospace Corp. v Mayacamas Corp., 485 U.S. 271, 279 (1988) is entirely different
from that of Petitioner's case.
In this case, it's magistrate judge to knowingly violate 28 U.S. Code§636(b)(1)(A)
and 28 U.S. Code§636(e)(4) to issue preliminary injunctions and excise civil contempt
authority to help and protect Respondent and Respondent counsels' nefarious deeds
in perjury, falsification on documents, and contempt. It's clearly erroneous for the

5

Tenth Circuit to cite case Gulfstream Aerospace Corp. v. Mayacamas Corp., 485 U.S.
271, 279 (1988) to dismiss Petitioner's appeal case.
Furthermore, the decision of this Court in Carson v Am. Brands, Inc., 450 U.S.
79, 84 (1981) clearly stated that an order that does not expressly grant or deny an
injunction may nevertheless be appealable under 28 U.S. Code§1292(a)(1) if it:
(1) has the practical effect of granting or denying an injunction; (2) could cause
serious or irreparable harm; and (3) can only be "effectually challenged" by
immediate appeal. See also Buckingham v. Gannon (In re Touch America Holdings,
Inc. ERISA Litig.), 563 F.3d 903, 906 (9th Cir. 2009); and Negrete v Allianz Life Ins.
Co. of North America, 523 F.3d 1091, 1097 (9th Cir. 2008).
Magistrate judge's injunctions effectively preclude Petitioner from proceedings
in discovery and further other actions, and has serious and irreparable consequences
to harm Petitioner in discovery and trial, and meet with essential attributes of
injunctions, and the requirements for immediate appeal under Carson v. Am. Brands,
Inc., 450 U.S. 79, 84 (1981) and the decision made by the Ninth Circuit.
Therefore, besides violation of constitutional First Amendment and the rights
protected by the Due Process Clause of the Fourteenth Amendment, the decision of
the Tenth Circuit is also clearly in conflict with the decision of not only this Court but
also the Ninth Circuit. Therefore, there is an overriding need for national uniformity.

CONCLUSION

For the foregoing reasons, the petition for rehearing should be granted.

Respectfully submitted,

Date: April 12, 2021

6

CERTIFICATE OF PRO SE PETITIONER

I hereby certify that this petition for rehearing is presented in good faith and not
for delay.

Pro Se Petitioner

7

No.

20-6882

In The

aupreint Court of the tinfteb *tate%
BO ZOU

— PETITIONER

VS.

LINDE ENGINEERING NORTH AMERICA, INC. — RESPONDENT

PROOF OF SERVICE
I, BO ZOU, do swear or declare that on this date, April 12, 2021 as required by
Supreme Court Rule 29, I have served the enclosed PETITION FOR REHEARING on
each party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Jonathan G. Rector, 2001 Ross Avenue, Suite 1500, Lock Box 116,
Dallas, TX 75201
I declare under penalty of perjury that the foregoing is true and correct. Executed
on April 12, 2021.

(Signet

`ne)FIECEIVED
APR 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

